Case #:
THE SUPREME COURT OF THE UNITED STATES
Original Case Number: 19CV701

Tamara Rouhi

Original Case/Complaint/Exhibits Filed:
3/6/19

Plaintiff/Appellant
V
CVS Pharmacy (CVS Health Inc)
Giant Pharmacy (Ahold Delhaize)
Wegmans Pharmacy (Wegmans Food
Markets Inc)
Walgreens Pharmacy (Walgreen Co.)
Nature Care/Health Mart Pharmacy
(McKesson Inc)

Appellate Court Case Number:
20-1462
A review from the US Court of Appeals
for the Fourth Circuit.
Civil Case.
Jury not requested.

Defendants / Appellee
PETITION FOR REVIEW & WRIT OF CERTIORARI
Alston & Bird LLP

DeCaro Doran Siciliano

Semmes Attorneys at Law

950 F Street NW

Gallagher & DeBlasis

25

Washington, DC 20004

LLP

Suite 1400 Baltimore, MD

2022393300

17251 Melford Boulevard,

21201

Counsel for CVS Pharmacy

Suite 200 Bowie, MD 20715

Counsel

for

(CVS Health Inc)

3013524950

Pharmacy

(Wegmans

Whiteford, Taylor, Preston,

Counsel for Giant

Markets Inc)

LLP

Pharmacy (Ahold Delhaize)

Zuckerman Spaeder LLP

7 Saint Paul Street

Pro Se

100 E Pratt St Ste 2440

Baltimore, MD 21202

Plaintiff/Appellant

Baltimore, MD 21202

18009878705

Tamara Rouhi

4103320444

Counsel for Walgreens

125 Fennington Circle

Counsel

Pharmacy (Walgreen Co.)

Owings Mills MD 21117

Care/Health Mart Pharmacy

4105228217

(McKesson Inc)

South

Charles

Street,

410539504

for

Wegmans
Food

Nature

I. ISSUES PRESENTED FOR REVIEW

•

The Defendants did not make a single factual or valid point, but still
prevailed in the case. That is clearly unjust.

•

I am not happy with the service (in terms of business, but also postage) that I
received from the Federal District Court of Maryland or the US Court of
Appeals for the Fourth Circuit.
•

The Federal District Court of Maryland made the wrong decision. The
decision was not based on law, but instead, on lies. This injustice should
be corrected.

•

The Federal Court of Appeals for the Fourth Circuit made a fraudulent
judgement. This injustice should be corrected.

2

II. PARTIES

Plaintiff/Appellant
Tamara Rouhi
125 Fennington Circle
0wings Mills MD 21117

Defendants/Appellees
CVS Health Inc

Walgreen Co.

One CVS Drive

200 Wilmot Rd.

Woonsocket, RI 02895

Deerfield IL 60015

Ahold Delhaize/Giant Food

McKesson Inc

8301 Professional Place Suite 115

One Post Street,

Landover, MD 20785

San Francisco, CA, 94104

Wegmans Food Markets Inc
1500 Brooks Ave
Rochester, NY 14624

3

III. PREVIOUS PROCEEDINGS
The Original case (Tamara Rouhi V CVS Pharmacy et al, Case #19CV701)
was filed at the United States District Court, District of Maryland, Baltimore, on
3/6/19. Judgment granting the Defendant’s Motions to Dismiss were entered on
2/24/20. Plaintiffs Motion for Reconsideration was denied on 3/10/20.
An Appeal was filed at the United States Court of Appeals for the Fourth
Circuit (Tamara Rouhi V CVS Pharmacy et al, Case #20-1462), and “judgement”
by a clerk was entered on 8/24/20.

IV. TABLE OF CONTENTS
Section Number
I
II
III
IV
V
VI
VII
VIII
IX
X

XI
XII
XIII
XIV
XV

Section Title
COVER PAGE
ISSUES PRESENTED FOR REVIEW
PARTIES
PREVIOUS PROCEEDINGS
TABLE OF CONTENTS
TABLE OF AUTHORITIES
CITATION OF JUDGEMENTS
BASIS FOR JURISDITION
STATUTORY PROVISION
RULE 29.4 COMPLIANCE
AUTHORITIES
SUMMARY OF THE CASE
ARGUMENT
PROPOSED ORDER____________
POINTS AND AUTHORITIES
REPRESENTATION STATEMENT

Page Number
1
2
3

4
5
6
7
7-8
8
8
8

8-9
9-14
14
15
15

5

V. TABLE OF AUTHORITIES
Statute Title
Article III, Section 2, US
Constitution
Certiorari

Code
Article III, Section 2, US
Constitution
28 U.S. Code § 1254

The Civil Rights Act of
1964, title II_________
Deprivation of Rights Under Color 18 U.S. Code § 242
of Law_______ _________________
28 U.S. Code §1332
Diversity Jurisdiction
Civil Rights

Page
Number
8
8
8,14,15
14

7

Federal Question

28 U.S. Code §1331

7

Final decisions of district courts

28 U.S. Code §1291

7

First Amendment

First Amendment,
US Constitution
MD § 3-803

14
8

Misuse of an interactive computer
service_________________________
Misuse of telephone facilities

MD § 3-805

8

MD § 3-804

8

Obstruction of Justice

18 U.S. § 1505

14

Stalking

MD § 3-802

8

Supplemental Jurisdiction

28 U.S. Code § 1367

7

Thirteenth Amendment

Thirteenth Amendment,
US Constitution
___

14

Harassment

(o

VI. CITATION OF JUDGEMENTS

Judgement in Tamara Rouhi V CVS Pharmacy et al, Case #19CV701, U.S.
District Court, Maryland, 2020, can be found on page 3 of Appendix I. A
memorandum opinion follows.
Judgement in Tamara Rouhi V CVS Pharmacy et al, Case #20-1462, U.S.
Court of Appeals, Virginia (4th Cir. 2020), can be found on page 19 of Appendix I.
An unpublished opinion follows.

VIL BASIS FOR JURISDITION
Rule 14,E, I, is satisfied section in section III.
The Basis for Jurisdiction in Tamara Rouhi V CVS Pharmacy et al, Case
#19CV701, US District Court, Maryland, 2020, was Diversity Jurisdiction (28 U.S.
Code §1332),

Federal Question Jurisdiction (28 U.S. Code §1331), and

Supplemental Jurisdiction (28 U.S. Code §1367). I am aware that Diversity
Jurisdiction alone is not sufficient enough to have complex issue of state law
reviewed by the Federal District Court of Maryland, but the combination of
Diversity Jurisdiction and Federal Question Jurisdiction is enough to include
Supplemental Jurisdiction.
The Basis for Jurisdiction in Tamara Rouhi V CVS Pharmacy et al, Case
#20-1462, U.S. Court of Appeals, Virginia (4th Cir. 2020), is: The United States
Court of Appeals for the Fourth Circuit has jurisdiction over The Federal District
Courts of Maryland (28 U.S. § 1291).

7

The Basis for Jurisdiction in Tamara Rouhi V CVS Pharmacy et al, Case
#

, US Supreme Court, DC, 20.

, is that the United States

Supreme Court has jurisdiction over The United States Courts of Appeals (Article
III, Section 2 of the US Constitution).
VIII. STATUTORY PROVISION
28 U.S. § 1254 states that judgments in the US Court of Appeals may be
reviewed by the US Supreme Court by getting a Writ of Certiorari granted.

IX. RULE 29.4 COMPLIANCE
Service under this subsection does not apply to this case.
X. AUTHORITIES
Rule 14 F is satified in section V and Appendix II.

XI. SUMMARY OF THE CASE
Rule 14 G II is satified in section VII.
“While I have been a customer of CVS Pharmacy, Giant Pharmacy,
Wegmans Pharmacy, Walgreens Pharmacy, and Nature Care Pharmacy, I
have been the victim of injustices including, but not limited to, harassment
(MD § 3-803), stalking (MD § 3-802) , the misuse of telephone facilities OVID §
3-804), the misuse of an interactive computer service (MD § 3-805), invidious
discrimination, refusal of equal access to goods and services (Civil Right), and
general invasions of privacy.
Pharmacy employees from different stores were in contact with each other
to ensure that I was harassed at each pharmacy that I went to, and to make
sure that I was unable to avoid the harassment. They have made going to the
pharmacy an extremely traumatizing experience. They have interfered with
my health care, as well as my life, while creating prolonged and severe
emotional distress, for which I would like to be compensated.”
Above is an extract from the US District Court of Maryland Original
Complaint and the US Court of Appeals for the Fourth Circuit Appellate Brief.

S

None of the facts/claims in it, or any other claims in the Original Complaint
regarding the pharmacy employee’s behavior have been questioned or disputed as
false by the Defendant’s Representatives, the US District Court of Maryland, or
the US Court of Appeals for the Fourth Circuit, yet judgement was still made in
favor of the Defendants (Appendix I P.3).
Additionally, any claims of insufficiency regarding the legal process of the
plaintiff were lies. The outcome of this case was clearly unjust.

XII. ARGUMENT
My petition should be granted because the previous courts have so far
departed from the accepted and usual course of judicial proceedings that someone
must step in and correct thier clear errors.

The United States District Court of Maryland
My issues with the Federal District Court of Maryland started with my first
filing, when they refused to give me copies of my Summons, even though it was
sufficiently filled out. By the end of the case, I was not even served the Order
granting the Defendant’s Motions to Dismiss, despite the Order (which I obtained
from Pacer) stating that it would be sent to me (Appendix I P. 3).
The Memorandum Opinion (Appendix I P. 4-15) that was filed with the Order
is basically a summary of the case/causes of action, and a summary of the
Defendant’s Motions. My argument will mostly focus on this document, as I
already responded to each Defendant’s Motion in my responses to their filings,

which should be included in the record. Despite responding to the Defendant s,
the Judge chose to re-state what the Defendant’s Representatives said, and
ignore everything that I had said in response. I will respond to the issues again,
this time directing them toward the Judge’s filings/rulings.
Pages 1-5 of the Memorandum Opinion are just a summary of the Original
Complaint. On page 6 (Appendix I P. 9) it is stated that the case was filed under
Diversity Jurisdiction, without mentioning the other jurisdictions that were
listed in the document titled Amendment to Complaint (District Court Docket
entry 1), which were Federal Question as well as Supplemental. It is then stated
that Tamara Rouhi served some, but not all, of the defendants. It states that I did
not serve Nature Care or Health Mart pharmacy, but instead its parent Company
McKesson. As previously stated, I am suing McKesson, therefore service was
proper. The cause of action for suing McKesson were things that occurred at
businesses that they own (Nature Care/Health Mart). With all five of the
defendants, the parent company was sued, so I am not sure why the judge singled
this defendant out. Nevertheless, jurisdiction and service was accurate.
On page 7 (Appendix I P. 10) the judge lists rules for a complaint, all of which
were followed by the plaintiff, and are therefore not relevant reasons for
dismissal.
On page 8 (Appendix IP. 11) the judge repeats what was already said, this
time adding that the Original Complaint fails to state a claim of any kind,
something that the judge already proved false on pages 1-5 of his Memorandum

10

Opinion. He then states that the Plaintiffs Complaint is dismissed without
prejudice, after not giving a single factual legal reason as to why.
The judge then goes over the previous “points” again. The judge mentions
jurisdiction again, stating things like “the citizenship of every plaintiff must be
different from the citizenship of every defendant” but then shooting this
argument down by saying “a corporation is deemed to be a citizen of the state by
which it has been incorporated and of the state where it has its principal place of
business”. This would mean that all of the defendants qualify for Diversity
jurisdiction in one way or another.
On page 9 (Appendix I P. 12) the judge focuses on Giant Food LLC (Giant
Pharmacy,owned by Ahold Delhaize), first proving (if it were true) diversity
jurisdiction and then stating that complete diversity does not exist for the
defendant. The judge then tries to shoot down Federal Question jurisdiction (just
for this defendant), stating that no federal cause of action was mentioned m the
Complaint (Appendix I P. 13). However, Civil Rights were mentioned in the
Complaint, and on page 6 of the judge’s Memorandum Opinion. Therefore, the
judge’s statement that “as the complaint fails to establish a statutory basis for
this court’s exercise of jurisdiction, it must be dismissed is absurd.
Continuing on page 10 (Appendix I P. 13) is the judge’s argument that no
claim was stated. How were no claims stated? Because “the plaintiff lacks a
private cause of action to bring claims under the Maryland laws she cites”,
despite being a private citizen who is representing myself for causes of action that

l(

happened to me personally. The judge’s statement that no claims were stated is
clearly false.
On page 11 (Appendix I P. 14) the judge states that any discrimination claims
fail because I did not state that I was in a “protected class”. I actually did do so,
even though unnecessary and offensive, in one of my responses to the Defendants.
I’m an American, a woman, and a person of color. After that the judge once again
states that the case is dismissed.
I filed a Motion for reconsideration, where I specifically asked for a different
judge. Instead, the same judge sent me a Memorandum Order (Appendix I P.
16-18) stating that my Motion for Reconsideration was Denied.
On page 1 of the Memorandum Order (Appendix I P. 16), the judge states that
the case was dismissed because the “...complaint failed to establish an adequate
basis for jurisdiction and otherwise did not state

claim of any kind”, before

stating claims from the original Complaint in the Background section.
In the Standard of Review section (Appendix I P. 17) the Judge states that
“the Federal Rules of Civil Procedure to not expressly recognize motions for
reconsideration”. As stated in the actual Motion for Reconsideration, it was filed
under Local (Maryland) Federal Rules, so this is not relevant. The judge goes on
to name the reasons for granting a type of motion that I did not submit to the
court, including Manifest Justice which was in fact mentioned in the Motion for
Reconsideration that was denied, and clearly not given proper consideration, as I
received a response from the same judge.

IZ

In the Analysis section of the Memorandum Order (Appendix I P. 18), the
judge essentially states that the previous 12 page Memorandum Opinion was
enough. The judge also states that no reason for obtaining relief “from the
judgement” was provided, nor were any legal authorities provided, even though
the judge cites them himself. In conclusion, my Motion for Reconsideration was
given as much consideration as the rest of my filings: none.
The outcome of this case is clearly incorrect in terms of law, and ethics. The
judge was a bully, who purposely delayed relief, or any form of justice, through
lies. I have been treated unfairly by the court, just as I was treated unfairly at the
Defendant’s businesses.

The United States Court of Appeals for the Fourth Circuit
The United States Court of Appeals for the Fourth Circuit was no better than
the United States District Court of Maryland. Instead of reviewing my case, The
United States Court of Appeals for the Fourth Circuit had a clerk send me a
document which said “Judgement” (Appendix I P. 19) and close the case. I did not
receive a signed order from a judge, which I, and all of the Defendant’s are
entitled to. This is disgraceful.
The fraudulent judgement was accompanied by an unpublished opinion
(Appendix I P. 20-21) by an unknown person that was full of fictitious or
irrelevant information. The document states that the District Court s Decision
was not a final order (it was), that the case is dismissed for lack of jurisdiction
(proper jurisdiction has been proven), and that I would receive instructions on

I2>

how to amend my complaint. If the case is dismissed why would I need to amend
my original complaint? Nevertheless, that info was not sent to me.

Conclusion
The previous Court Houses gave me the run-around, and treated me like I did
not matter. I did not contact these Court Houses to be social, I contacted them to
excersise my rights as an American and to get what is owed to me. Although the
previous Court Houses refused to honor it, the ownership of people/slavery was
abolished in the Thirteenth Amendment of the US constitution. No one is
required to socialize with these people against their will, through deception,
under the guise of justice or official business. If the employees of these Court
Houses want to play games and hurt people, they should do so on their own time.
In addition to the defamation and abuse of a Country and a Citizen, the
previous Courts have deprived me of rights (18 U.S. Code § 242), denied me equal
access to the laws of this country (Civil Rights), violated my First Amendment
Rights (US Constitution), obstructed justice (18 U.S. § 1505), and treated my case
like a joke. These injustices must be corrected.

XIII. PROPOSED ORDER
I propose that the order state something along the lines of: The Plaintiffs
Petition for Review and Writ of Certiorari is granted.

II

XIV. POINTS AND AUTHORITIES
I am entitled to equal access to the judicial system (Civil Rights).

XV. REPRESENTATION STATEMENT
I, Tamara Rouhi (Pro Se), represent the Plaintiff (Appellant), Tamara Rouhi,
in the review of this case. All research and documents were done by Tamara
Rouhi, with no direct help from an attorney.

I certify, under penalty of perjury, that the information in this document is
true to the best of my knowledge.

Tamara Rouhi
Pro Se

/5

